Tr
COCKLE

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

No. 20-1199

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

STUDENTS FOR FAIR ADMISSIONS, INC.,

Petitioner,
Vv.

PRESIDENT & FELLOWS OF HARVARD COLLEGE,

Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
CALIFORNIANS FOR EQUAL RIGHTS. FOUNDATION AS AMICUS CURIAE IN SUPPORT
OF THE PETITIONER in the above entitled case complies with the typeface requirement of

Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and

10 point for the footnotes, and this brief contains 5954 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 31st day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Oudia-h, Chale

 

GENERAL NOTARY-State of Nebraska
i RENEE J. GOSS 9
My Comm. Exp. September 5, 2023 =

Notary Public

Affiant 40769
